    Investigative Report
                             CNMI ARRA Management


                                 Report Date: July 14, 2011
                              Date Posted to Web: July 22, 2011




  This report contains information that has been redacted pursuant to 5 U.S.C. §§ 552 (b)(5),
  (b)(6), and (b)(7)(C) of the Freedom of Information Act. Supporting documentation for this
report may be obtained by sending a written request to the OIG Freedom of Information Office.
                                          SYNOPSIS

The Office of Inspector General investigated allegations of fraud connected to the sole-source
award of a service contract for the management of the Commonwealth of the Northern Mariana
Islands (CNMI) American Recovery and Reinvestment Act (ARRA) funds to Integrated
Professional Services (IPS). IPS is a company owned in part by former CNMI Secretary of
Commerce, Michael Ada. Upon Ada’s resignation from his position as Secretary of Commerce
in October 2010, IPS was awarded a $392,406 sole-source contract as authorized by CNMI
Governor Benigno Fitial.

Our investigation collected evidence suggesting that the contract to IPS violated multiple CNMI
ethics rules, including 1 Commonwealth Code (CMC) § 8543: Post-Employment Restrictions; 1
CMC § 8531: Use of Office, Staff or Employees of Public Office; and 1 CMC § 8532: Restraint
on Use of Public Position to Obtain Private Benefit; and 1 CMC § 8544: Negotiating for
Nongovernment Employment. In addition, we found that the contract may have violated CNMI
Procurement and Supply Regulations, Part 700, “Ethics in Public Contracting.” Under the terms
and conditions, the contract is null and void if the procurement processes or execution fails to
comply with CNMI Procurement and Supply Regulations.

The U.S. Attorney’s Office for the District of Guam and the Northern Mariana Islands declined
prosecution of this investigation. We conducted this investigation jointly with the CNMI Office
of Public Auditor (OPA). OPA will provide its opinion separately to the CNMI Government.

                              DETAILS OF INVESTIGATION

We initiated this investigation in November 2010 based upon media reports highlighting ethical
concerns in the award of the contract to Integrated Professional Services (IPS). Our
investigation, which consisted of witness interviews, a review of the American Recovery and
Reinvestment Act (ARRA) management contract, and a review of the Commonwealth of the
Northern Mariana Islands (CNMI) Government Ethics Code, found evidence to suggest that the
contract to IPS violated CNMI ethics rules.

ARRA Contract Awarded to Integrated Professional Solutions

CNMI Governor Benigno Fitial appointed Michael Ada the CNMI Secretary of Commerce in
August 2008.

Fitial appointed Ada to manage CNMI’s ARRA grants and projects. Ada helped CNMI obtain
multiple ARRA awards and was also responsible for CNMI’s ARRA reports to awarding
agencies. Fitial reported that CNMI received $97 million in ARRA funding. The U.S.
Government’s official tracking site, www.recovery.gov, reported that CNMI was awarded
ARRA funds from 13 Federal agencies totaling $120,618,757 from 11 contracts and 53 grants
from February 17, 2009, to March 31, 2011.

In August 2010, Ada informed Fitial of his intent to leave the government. Ada and Fitial
discussed privatizing Ada’s duties of managing CNMI’s ARRA projects and funds. During

                                                2
Ada’s final month in office, at Fitial’s direction, Ada prepared the service contract for
management of ARRA funds for award. Ada and Fitial dispute who first brought up the idea of a
private contract to manage CNMI’s ARRA projects. Both agree, however, that they developed
the Integrated Professional Services (IPS) contract while Ada was in office.

Ada resigned from his position as Secretary of Commerce on October 8, 2010. On October 12,
2010, a $392,406 service contract (Contract 525276-OC) was approved for the not-yet-formed
IPS to manage CNMI’s ARRA projects and grants. The contract was officially awarded on
October 13, 2010. On October 14, 2010, Ada and his business partner obtained a business license
for IPS. Based on Fitial’s justification, the contract was awarded as a sole-source award. Based
on another justification from Fitial, CNMI advanced IPS $78,418. The contract was funded with
administrative funds from ARRA awards.

To fund the enhanced reporting and administrative requirements placed on recipients of ARRA
funds, the Act includes a provision that allows recipients to add an additional 0.5 percent to their
negotiated indirect cost rates for ARRA awards. Ada explained that his former governmental
ARRA oversight office was funded solely with these administrative funds.

Attorney General Edward Buckingham and Director of Procurement and Supply Herman Sablan
reviewed the determination to award the contract as a sole-source award to IPS. Buckingham
acknowledged that ethics concerns existed and that Ada had a conflict of interest. He thought,
however, that the need for the contract outweighed ethics concerns. Sablan said he felt that the
sole source award was justified because the justification indicated that the Attorney General
reviewed the document. He acknowledged that he simply relied on the Attorney General’s
opinion rather than his own review of the document.

Violations of CNMI Ethics Rules and Ethics in Public Contracting

1 CMC § 8543(b), Postemployment Restrictions states that:

       No former public official or public employee shall, for a period of one year after
       the termination of the official’s or employee’s term of public office or public
       employment, assist or represent any person in any business transaction involving
       the Commonwealth if the official or employee participated personally and
       substantially in the subject matter of the transaction during his term of public legal
       authority. With respect to a contract, this prohibition shall be permanent as to that
       contract.

Ada participated personally and substantially in CNMI’s ARRA management while he was a
government official. Fitial appointed Ada to manage CNMI’s ARRA projects and said that Ada
was vital to CNMI’s ARRA management because he had been “very involved” with the program
since its inception. Ada applied for ARRA grant funding and secured $97 million for CNMI.

Review of contract documents indicates that Ada represented IPS in its contract with the CNMI
government. Review of business registration documents shows that he is a full partner in IPS,
and the contract bears his signature. When interviewed, Ada acknowledged that he arranged the

                                                 3
contract with the government on behalf of IPS and substantially participated in preparing the
contract documents on behalf of the CNMI government.

IPS was awarded the contract just 5 days after Ada resigned from the government, which violates
the regulatory 1-year period. Ada confirmed that he officially resigned his position as Secretary
of Commerce on October 9, 2010, and signed the contract on October 12, 2010. Review of the
contract file showed that the Director of Procurement and Supply processed the contract and
issued the notice to proceed on October 13, 2010. A $78,418 check was issued to IPS on October
15, 2010.

1 CMC § 8532, Restraint on Use of Public Position to Obtain Private Benefit states that:

       (a) A public official or public employee shall not use or attempt to use the public
       position to obtain private financial gain, contract, employment, license, or other
       personal or private advantage, direct or indirect, for the public official or public
       employee, for a relative, or for an entity in which the public official or employee
       has a present or potential economic interest.
       (b) A public official or public employee or a former public official or former public
       employee shall not disclose or use for the public official or employee’s or former
       public official or former public employee’s own economic benefit or that of another
       person confidential information acquired by the public position or employment that
       is not generally available to the public.

Our investigation discloses that as the employee responsible for CNMI’s ARRA management
efforts, Ada gained a distinct advantage in obtaining the ARRA management contract. Fitial said
that Ada obtained the ARRA management contract because he was indispensable to CNMI’s
ARRA management efforts. Buckingham acknowledged Ada’s conflict of interest in negotiating
the contract but said that the governor awarded the contract to Ada because failure to approve the
contract would put millions of dollars in ARRA funds at risk. Buckingham said that in
negotiating for a private ARRA management contract, Ada had CNMI at a disadvantage, and
Ada used his advantage to obtain the contract.

Ada used information not generally available to the public for his own economic benefit. Only
Fitial and Ada knew of the possibility of privatizing CNMI ARRA management until after they
agreed to the framework of the deal. Ada did discuss the possibility of the contract with
Lieutenant Governor Eloy Enos. Ada authored a letter requesting an opinion to the Public
Auditor prior to the award of the contract. Fitial signed the letter. This information, however,
was not available to the public. The ARRA management contract was never advertised, and the
public did not know of the privatization of ARRA management until after IPS was awarded the
contract.

Further, the sole-source justification memorandum from Fitial to the Director of Procurement
and Supply, Herman Sablan, on October 6, 2010, acknowledges Ada’s advantage. It reads, “Mr.
Ada has extensive historical and current knowledge, as well as non-public information of all
ARRA funds. His clear advantage with the intricacies of the ARRA funds creates a distinct



                                                4
advantage should the CNMI Government bid out the services according to procurement
regulations.”

1 CMC § 8544, Negotiating for Nongovernment Employment, states that:

       A public official or public employee of the Commonwealth government may not
       participate through discussion, decision, approval, disapproval, recommendation,
       the rendering of advice, or otherwise, in a proceeding, application, request for
       ruling or other determination, contract, claim, hearing, controversy, investigation,
       charge, accusation, arrest, any process of legislation, or other matter, the outcome
       of which will have an effect on the financial interests of an individual or an
       organization with whom the public official or public employee is discussing,
       negotiating for, or has an agreement or arrangement for employment, by contract,
       retainer, or otherwise.

Our investigation reveals that Ada substantially participated through both discussion and
rendering of advice in the IPS ARRA management contract, which affected his own financial
interests and the financial interests of his partner. At the time the contract was awarded, IPS had
not yet been officially formed, but was in the process of being created. Ada began discussions for
employment by contract with Fitial in August or September 2010. Ada began discussions with
his partner during summer 2010.

1 CMC § 8531, Use of Office, Staff or Employees of Public Office, states that:

       A public official or public employee shall not use the public official or public
       employee’s office, staff or employees of the public official or public employee’s
       office to give the public official or public employee or any other person
       unwarranted privilege, including the following:
               (a) Seeking employment or contracts for goods or services.
               (b) Conducting private business activities or activities for private financial
               gain.

Ada and Fitial dispute who first brought up the idea of a private contract to manage CNMI’s
ARRA projects. Both agree, however, that they developed the IPS contract while Ada was in
office and Ada said he and Fitial had continuous conversations about the contract before he left
office.

In addition, it appears the contract violated multiple clauses of CNMI Procurement and Supply
Regulations, Part 700 – Ethics in Public Contracting:

       70-30.3-720 Employee Conflict of Interest

       (a) Conflict of interest. It is a breach of ethical standards for any employee to participate
       directly or indirectly in a procurement when the employee knows that:
       (1) The employee or any member of the employees immediate family has a financial
       interest pertaining to the procurement; or

                                                 5
       (2) Any other person, business or organization with whom the employee or any member
       of the employee’s immediate family is negotiating or has an arrangement concerning
       prospective employment is involved in the procurement.
       (b) Discovery of actual or potential conflict of interest, disqualification and waiver.
       Upon discovery of an actual or potential conflict of interest, an employee shall promptly
       file with the P&S Director a written statement of disqualification and shall withdraw
       from further participation in the transaction involved. The employee may, at the same
       time, apply to the Public Auditor for an advisory opinion as to what further participation,
       if any, the employee may have in the transaction.

       70-30.3-740 Restrictions on Employment of Present and Former Employees

       (b) Restrictions on former employees in matters connected with their former duties.
       Permanent disqualification of former employee personally involved in a particular matter.
       It shall be a breach of ethical standards for any former employee knowingly to act as a
       principal, or as an agent for anyone other than the government, in connection with any:
       (1) Judicial or other proceeding, application, request for a ruling or other determination;
       (2) Contract;
       (3) Claim; or
       (4) Charge or controversy, in which the employee participated personally and
       substantially through decision, approval, disapproval, recommendation, rendering of
       advice, investigation, or otherwise while an employee, where the government is a party or
       has a direct or substantial interest.

While still the Secretary of Commerce, Ada participated directly in the IPS ARRA management
contract in which he and his company had a financial interest. We found no evidence that Ada
ever filed a written statement of disqualification with the Director of Procurement and Supply.
Ada did author the letter from the governor to the public auditor that requested an opinion on the
sole source award. The letter, however, did not address Ada’s conflict of interest, and the public
auditor declined to render an opinion on this contract. Both Ada and Fitial admitted that in
addition to several discussions about the contract while Ada was in office, Ada prepared most of
the documents related to the contract. Ada researched the precedent for privatizing ARRA
management, drafted the scope of work, and drafted the letter requesting an opinion to the Public
Auditor. Ada said that he prepared and finalized the entire contract package, though when asked
directly, he denied entering the name of his company on the final contract documents.

Further, under CNMI Procurement and Supply Regulation 70-30.3-740, Ada is permanently
disqualified from any contract involving his former governmental duties.

The Terms and Conditions of the contract specify, in part:

       § 1. Regulations Controlling: This contract is null and void if either the procurement
       processes or contract execution fails to comply with the CNMI Procurement Regulations.

       Commonwealth Register Vol. 22, No. 08 (2000) and Vol. 23, No. 05 (2001). Any
       procurement action of a government official or employee in violation of said regulations

                                                6
       is not authorized by the government and is an act for which the government will not take
       responsibility for in any manner. The Contractor and the government Contracting Officer
       hereby certify they have both read and understand said procurement regulations and have
       complied with all such regulations.

Response from ARRA Awarding Agencies

Fitial and Buckingham both acknowledged ethical concerns in awarding the contract to IPS,
including the apparent conflict of interest. Fitial said he was afraid CNMI would have lost all of
its $97 million in ARRA funding if he had not awarded the contract to IPS. He acknowledged,
however, that he had not discussed this concern with any of the awarding agencies. Fitial was
simply aware of the enhanced oversight and reporting requirements of ARRA.

We contacted the awarding officials from several agencies that provided ARRA awards to
CNMI. While all of the officials emphasized that ARRA awards involve enhanced reporting
requirements and increased scrutiny, all officials reported that they would not have withdrawn
funding for a single late report.

CNMI received two ARRA awards from Housing and Urban Development (HUD). CNMI also
received funds from an Entitlement Communities Division, Community Planning and
Development (CDBG-R) grant and a Rapid Re-housing Program (HPRP) award. The HUD
Office of Departmental Grants Management and Oversight has coordinated ARRA Section 1512,
Reports on Use of Funds, compliance for the past 5 reporting periods. The HUD spokesperson
said that, over the past 5 reporting periods, HUD has not recaptured funds when an awardee
failed to submit a completed report template by the reporting deadline. The HPRP Program
Coordinator and the CDBG-R Program Coordinator both said that neither program has ever
recaptured funding due to late reporting. The HPRP policy is to provide warning letters after the
first two missed or late reports, and HPRP continues to work with recipients even after a third
failure to report.

The Environmental Protection Agency (EPA) provided approximately $3.4 million in ARRA
funding to the Commonwealth Utility Corporation to improve drinking water and wastewater
infrastructure. Pamela Luttner, the Senior Policy Advisor for the EPA’s Office of Budget, said
that if a recipient repeatedly missed meeting their reporting requirements, EPA would likely pull
any remaining funds due to noncompliance. She said that EPA, however, is unlikely to pull
funding from a recipient after a single late or missing report if circumstances prevented them
from meeting these deadlines. EPA likely would attempt to address the issues and try to
accommodate any specific needs.

The U.S. Department of Agriculture Emergency Food Assistance Program (TEFAP) provided
$25,000 in ARRA funding to CNMI in March 2009. The TEFAP Program Manager said that at
the time the funding was provided to CNMI, the guidance from the Recovery Accountability and
Transparency Board (RATB) was that funding would be pulled if recipients failed to report. As
time went on, however, RATB relaxed its no waiver policy. He added that his office has never
had any instances of late reporting. Further, CNMI was not required to report quarterly because it
did not meet the funding level under the reporting rules.

                                                 7
The U.S. Department of Education (DOE) awarded approximately $49,533,796 to CNMI. A
DOE Management and Program Analyst said DOE would not have pulled the funding back from
CNMI for late reporting.

The U.S. Department of Health and Human Services (HHS) awarded $4,766,188 to CNMI. A
spokesperson for the National Institute of Health (NIH), HHS, said NIH policy is that the NIH
Grants Compliance Office contacts recipients after the first late report. It freezes funding after
the second offense. Failure to report a third consecutive time would result in award termination.

                                          SUBJECT(S)

1. Michael Ada, Former Secretary of Commerce, CNMI.
2. Benigno Fitial, Governor, CNMI.

                                         DISPOSITION

The U.S. Attorney’s Office for the District of Guam and the Northern Mariana Islands declined
prosecution of this investigation. We conducted this investigation jointly with the CNMI Office
of Public Auditor (OPA). OPA will provide its opinion separately to the CNMI Government.




                                                 8
